0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Reply Brief of Petitioner in 20-1180,
Territory of American Samoa v. National Marine
Fisheries Service, et al., was sent via Next Day Service
to the U.S. Supreme Court, and via e-mail service to
the following parties listed below, this 26th day of May,
2021:
Elizabeth B. Prelogar
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Frederick W. Tucher
Elena Onaga
Kristen Johns
NOAA Office of General Counsel
U.S. Department of Commerce
Herbert C. Hoover Building
14th and Constitution Ave. NW
Washington, DC. 20230
(202) 482-4080
frederick. tucher@noaa.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jeffrey Bossert Clark
Assistant Attorney General
Eric Grant
Deputy Assistant Attorney General
Andrew C. Mergen
Robert J. Lundman
Environment and Natural Resources Division
U.S. Department of Justice
Post Office Box 7 415
Washington, D.C. 20044
(202) 514-2496
robert.lundman@usdoj.gov
Counsel for Respondents
Fainu'ulelei Falefatu Ala'ilima-Utu
Attorney General of American Samoa
William Ledoux
Aitofele Sunia
Department of Legal Affairs
Executive Office Building
Third Floor, P.O. Box 7
Utulei, Am. Samoa 96799
(684) 633-4163
ag@la.as.gov
Eleasalo Va'alele Ale
Lieutenant Governor of American Samoa
Alema Leota
Office of the Governor
Pago Pago, American
Samoa 96799
(684) 633-4116
info@go.as.gov

Michael F. Williams
Don Hong
Brandon D. Stone
Caroline Darmody
Kirkland & Ellis LLP
1301 Pennsylvania Ave. NW
Washington, DC 20004
(202) 389-5000
mwilliams@kirkland.com
Steven K.S. Chung
Michael L. Iosua
Imanaka Asato, LLLC
745 Fort Street Mall, 17th Floor
Honolulu, Hawaii 96813
(808) 521-9500
miosua@imanaka-asato.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 26, 2021.

Amy''friplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ J--0 l JOifj
d11 ·tv- tJ. ~u~k

Notary Public

U

[seal]

JOHN D. GALLAGHER
Notary Public,
of Ohio
My Commission Expires
' pt,,11•,ry 14 2023
I

